512

0*i

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

DAVID AZIEL SHEER,
Petitioner,
vs.

PILES'
ApR 28 2020

PATRICK WARREN,

Respondent.

PETITION PON WRIT OF CERTIORARI TO THE
UNITED STATE COURT OF APPEALS
FOR THE SIXTH CIRCUIT

David A. Sheer

M - 6 2020

PETITIONER
Gas Harrison Corr. Facility
2727 E. Beecher St.
Adrian, MI 49221

A

ISSUE PRESENTED
I.
WHETHER THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI IN
ORDER TO CORRECT THE SIXTH CIRCUITS DECISION IN DENYING
PETITIONER A CERTIFICATE OF APPEALABILITY AS ITS DECISION
CONFLICTS WITH DECISION OF THIS COURT ON IMPORTANT MATTER OF
FEDERAL LAW AS MR. SHEER HAS MADE A SUBSTANTIAL SHOWING OF
THE DENIAL OF CONSTITUTIONAL RIGHT?
II.
WHETHER DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO
CONFRONTATION UNDER THE UNITED STATES CONSTITUTIONAL WHERE
THE TRIAL COURT FAILED TO ADMINISTERED THE OATH TO MISTY
JUSTICE PRIOR TO TESTIFYING UNDER MICH. COMP. LAW $600.1432?
III.
WHETHER DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO
THE EFFECTIVE ASSISTANCE OF COUNSEL WHERE HIS TRIAL COUNSEL
FAILED TO ASSERT A TIMELY OBJECTION CHALLENGING THE
CONFRONTATION CLAUSE VIOLATION OF MISTY JUSTICE NOT
ADMINISTERED A OATH PRIOR TO TESTIFYING?
IV.
WHETHER DAVID SHEER WAS DENIED HIS FOURTEENTH AMENDMENT
RIGHT TO A FAIR TRIAL BY PROSECUTING ATTORNEY PROVIDING
FALSE TESTIMONY THAT MISTY JUSTICE AND DAVID SHEER RESIDED
TOGETHER AT THE TIME OF THE ROBBERY OF INTIMATE IDEA STORE?
V.
WHETHER DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO
THE EFFECTIVE ASSISTANCE OF COUNSEL WHERE HIS APPELLATE
COUNSEL FAILED TO INVESTIGATE AND RAISE THE PROSECUTION
DENIED HIM HIS FOURTEENTH AMENDMENT RIGHT TO FAIR TRIAL BY
PRESENTING FALSE TESTIMONY TO THE JURY?

TABLE OF CONTENTS
INDEX OF APPENDIXES

ii

TABLE OF AUTHORITIES

ill

OPINION BELOW

1

JURISDICTIONAL STATEMENT

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

ARGUMENT
I.

II.

III.

IV.

V.

THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI IN ORDER TO CORRECT
THE SIXTH CIRCUIT DECISION IN DENYING PETITIONER A CERTIFICATE
OF APPEALABILITY AS ITS DECISION CONFLICTS WITH DECISION OF THIS
COURT ON IMPORTANT MATTER OF FEDERAL LAW AS MR. SHEER HAS MADE A
SUBSTANTIAL SHOWING OF THE DENIAL OF CONSTITUTIONAL RIGHT .........

8

DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO CONFRONTATION
UNDER THE UNITED STATES CONSTITUTION WHERE THE TRIAL COURT FAILED
TO ADMINISTERED THE OATH TO MISTY JUSTICE PRIOR TO TESTIFYING
UNDER MICH. COMP. LAW $600.1432 ..........................................................

12

DAVIS SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO THE EFFECTIVE
ASSISTANCE OF COUNSEL WHERE HIS TRIAL COUNSEL FAILED TO ASSERT A
TIMELY OBJECTION CHALLENGING THE CONFRONTATION VIOLATION CLAUSE
VIOLATION OF MISTY JUSTICE NOT ADMINISTERED A OATH PRIOR TO
TESTIFYING.................................... ..........................................................

16

DAVID SHEER WAS DENIED HIS FOURTEENTH AMENDMENT RIGHT TO A FAIR
TRIAL BY PROSECUTING ATTORNEY PROVIDING FALSE TESTIMONY THAT
MISTY JUSTICE AND DAVID SHEER RESIDED TOGETHER AT THE RIME OF THE
ROBBERY OF INTIMATE IDEA STORE ............................................................

23

DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO THE EFFECTIVE
ASSISTANCE OF COUNSEL WHERE HIS APPELLATE COUNSEL FAILED TO
INVESTIGATE AND RAISE THE PROSECUTION DENIED HIM HIS FOURTEENTH
AMENDMENT RIGHTS TO A FAIR TRIAL BY PRESENTING FALSE TESTIMONY TO
THE JURY ............................. ......................................................................

28

:

CONCLUSION

31

CERTIFICATE OF SERVICE

33

CERTIFICATE OF FILING

34

1.

INDEX OP APPENDIXES

APPENDIX A
Opinion and Order of the United States Court of Appeals for
the Sixth Circuit denying his Petitioner for Rehearing En
Banc, Case no. 19-1576
APPENDIX B
Order of United States Court of Appeals for the Sixth Circuit
referring the matter to all active members of the court for
en banc rehearing, Case no. 19-1576
APPENDIX C
Order of United States Court of Appeals for the Sixth Circuit
denying Petitioner a Certificate of Appealability, Case no.
19-1576
APPENDIX D
Order and Opinion denying the Petitioner for Writ of Habeas
and Certificate of Appealability of the District Court for
the Eastern District of Michigan, Case no. 2:16-14261

ii.

TABLE OF AUTHORITIES
Amadeo v Zant,
486 U.S. 2014; 111 S.Ct 1454 (1991)

9

Burks v United States,
473 U.S. 1; 98 S.Ct 2141 (1978)
California v Green,
399 U.S. 149; 90 S.Ct 1930 (1970)

13

Chapman v California,
386 U.S. 18; 87 S.Ct 824 (1967)
Cockrell Miller-El,
537 U.S. 322; 123 S.Ct 1029 (2003)
Crawford v Washington,
541 U.S. 38; 124 S.Ct 1354 (2004)
Dalaware v Van Arsdall
475 U.S. 673; 106 S.Ct 1431 (1986)
Davis v Alaska,
415 U.S. 308; 94 S.Ct 1105 (1974)

8
13,15
21
15,21

Doe v Hermamos,
15 U.S. 76 (1817)

13

Duncan v Louisiana,
391 U.S. 145; 88 S.Ct 1444 (1968)

12

Donnely v Dechristoford,
416 U.S. 637; 96 S.Ct 1868 (1974)

23,27

Ellicott v Pearl,
35 U.S. 412; 9 L.Ed 475 (1836)

13,14,15

Fahy v Connecticut,
375 U.S. 85; 84 S.Ct 229 (1963)

19,22

Glglio v United States,
405 U.S. 264; 79 S.Ct 1173 (1959)

23,27

Giles v Maryland,
386 U.S. 66; 87 S.Ct 745 (1967)

25

Hawkins v United States,
355 U.S. 74; 79 S.Ct 136 (1958)

19

Jones v Barnes,
463 U.S. 745; 103 S.Ct 3314 (1983)

29

iii.

Kentucky v Strincer,
482 U.S. 730; 107 S.Ct 2658 (1979)

15

Kimmelman v Morrison,
477 U.S. 365; 106 S.Ct 2574 (1986)

22,29

Maryland v Graiy,
497 U.S. 836; 110 S.Ct 3115 (1990)

12

Mcleskey v Zant,
499 U.S. 478; 111 S.Ct 1454 (1991)

9

Mooney v Holohan,
294 U.S. 103; 55 S.Ct 340 (1935)

25

Napue v Illinois,
360 U.S. 264; 79 S.Ct 1173 (1959)

23,27

Pointer v Texas,
380 U.S. 400; 85 S.Ct 1105 (1974)

14

United States v Valezuela-Berbai,
458 U.S. 858; 102 S.Ct 3440 (1982)

16

Slack v McDoinel,
529 U.S. 437; 170 S.Ct 1595 (2000)
Strickland v Washington,
466 U.S. 668; 104 S.Ct 2052 (1984)

8
9,16,29
30

Wiggins v Smith,
539 U.S. 510; 123 S.Ct 2527 (2003)

16

Von Moltkey Gullis,
332 U.S. 708; 66 S.Ct 316 (1948)

29

UNITED STATES COURT OF APPEALS
Combs v Coyle,
205 F.3d 269 (6th Cir.2000)

21

Hendrix v Palmer.
893 F.3d 906 (6th Cir.2012)

18

Martin v Wainwright,
811 F.2d 1430 (11th Cir.1987)

31

McClellan v Rapelje,
703 F.3d 344 (6th Cir.2013)

31

iv.

United State v Quinn,
901 F.2d 582 (6th Cir.1990)

11,19

United States v Cook,
45 F.2d 388 (10th Cir.1995)

31

United States v Willis,
257 F.3d 636 (6th Cir.2001)

23,24,26

Washington v Hofbauer,
228 F.3d 689 (6th Cir.2000)

21

LOWER COURT AUTHORITIES
People v Frazier, (After Remand),
446 Mich 539; 521 NE2d 291 (1994)

15

People v hampton, 407 Mich 354; 285 NW2d 284 (1979)

10

People v Wastson,
245 Mich App 572; 629 NW2d 411 (2011)

15

v.

No.
IN THE
SUPREME COURT OP THE UNITED STATES
October Tent, 2020

DAVID AZIEL SHEER,
Petitioner,
V.

PATRICK WARREN,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

The Petitioner,

David Aziel Sheer,

respectfully prays that a Writ of

Certiorari issue to review the Order of the United States Court of Appeals for
the Sixth Circuit entered in this proceeding on September 30, 2019 denying a
certificate of appealability.
OPINION BELOW
On May 8th, 2019, United states District Court Judge George C. Steeh issued
a Order denying Petitioner's application for a Writ of habeas Corpus, and a
Certificate of Appealability under 28 U.S.C. 5 225M, A copy of the Order is
appended hereto, as Appendix D. On September 30, 2019, the Sixth Circuit Court
of Appeals issued a Order denying a certificate of appealability. A copy of
that Order A Opinion is appended hereto, as Appendix C. On February 7, 2020,

1.

the Sixth Circuit Issued an Order referring the petitioner's, petition for
a rehearing en banc. A copy of that Order is appended hereto, as Appendix B. On
February 24th, 2020, the Sixth Circuit Court of Appeals issued an Order denying
his petition for rehearing en banc. A copy of that Order is appended hereto, as
Appendix A.
JURISDICTION
The order issued of the United States Court of Appeals for the Sixth
Circuit was entered on February 24, 2020. This Petitioner is filed within
ninety (90) days of that date, as required by Rule 13.3 of the Supreme Court
Rules. This Court's jurisdiction is invoked under 28 U.S.C. $ 1254(1). See Hohn
v United States, 524 U.S. 236, 118 S.Ct 1969 (1998).
COHSTITUTIONAL AND STATUTORY PROVISIONS
Amendment Six of the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an
impartial jury of the State and district wherein the
crime shall have been committed, which district shall
have been previously ascertained by law, and to be
informed of the nature and cause of the accusations;
to be confronted with the witness against him; to
have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for
his defense.
title 28 United States Code, Section 2253(c) provides:
(c)(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be taken to
the Court of Appeals from(A) the final order in a habeas corpus proceeding in
which the detention complained of arises out of
process issued by a State Court; or

2.

(B) the final order in a proceeding under section
2255.
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a substantial
showing of the denial of a constitutional right.
Title 28 United States Code* Section 2254(a) provides:
The Supreme Court, a Justice thereof, a circuit judge, or
a district court shall entertain an application for a writ
of habeas corpus in behalf of a person in custody pursuant
to the judgment of a State court only on the ground that
he is in custody in violation of the Constitution or laws
or treaties of the United States.
STATEMENT OP THE CASE
FACTS
Petitioner David Sheer received a prison term of 18 to 40 years, as a
fourth habitual felony offender. Mr. Sheer was convicted by a jury of armed
robbery. Mr. Sheer's trial was held November 29, 30, sod December 1, 2010, with
the Honorable Rudy J. Nichols, Oakland County Circuit Judge, presiding. It was
alleged that on November 10, 2009, Mr. Sheer committed a larceny of money
and/or adult DVDs from the Intimate Idea store In Commerce Township and while
committing the larceny, used forces or violence and/or assault or put a person
present—employee Mary Kidd—at fear.
i

'

At approximately 10:30 p.«. on November 10,2009, Kidd was working alone
when a person entered the store. She did not hear the person enter because She
was Vacuuming. The person was male and was wearing a hood, something wrapped
around his face, Sunglasses, gloves, and he possessed a Utility knife. The man
pointed the knife and told her to open the eaSh register and not to push any
buttons before getting to the register. Wien Ms. Kidd was Shown the knife, She
did not recognize or could be positive its the knife used in the robbery. After
opening opining the cash register, the man told Kidd to stand on the other side
of the counter. She put her hand Up in the air to Show that she was not being

3.

defensive and asked him please not hurt her because She was a single parent of
a small child. The man ordered Kidd to lock herself in one of the back rooms.
She closed the back room.
Kidd

described his voice

as very stern,

derogatory comments toward [her].

"very

full

of cussing and

personally." Deputy Hein arrived at the

store. Sometime later, a voice line-up was conducted and Kidd immediately
picked out a voice She recognized as the person who robbed the store. On crossexamination, Kidd did not recall telling Hein that the robber spoke of an
"obvious fake, deep voice". She explained that she was in a panic at the time
she answered Hein's question and was not sure if the robber was disguising his
voice.
Tim Hein, a Deputy Sheriff with the Oakland County Sheriff's Department,
was working on November 10,2009, as a patrol officer assigned to the midnight
shift at the Commerce Township sub-station. At approximately 11:00 p.m • t Hein
was dispatched to the Intimate Idea Store on the Onion Lake Road for a reported
armed robbery. Kidd let Hein enter the store. Kidd waS the only person working
there at the time. Because Kidd appeared to be very distraught, Hein called
medical personnel to take a look at her. Hein reviewed the surveillance video
and also spoke with the owner of the store. A canine unit was called to attempt
to trial the robber, but the dog was unable to make a trial. Deputy Hein,
indicated that Kidd told him the robber's voice was very deep and obviously
fake.
When the prosecutor called Misty Justice to the stand. A juror interrupted
by asking the trial court if the video had been admitted into evidence. After a
few more juror questions, the People began questioning Justice without her

4.

actually being sworn on the record. Neither party objected. As neither the
trial court, nor the prosecutor, nor trial counsel was aware that the witness's
testimony was unsworn due to the interruption. Justice identified Mr. Sheer in
court as a former boyfriend who she lived with from January to November of
2009. When Sheer left the mobile home at approximately 10:00 p.m •» taking
Justice vehicle. Justice fell asleep on the couch and defendant returned at
approximately 4:30 a.m • e Justice was upset with defendant for taking he car
without asking and he told her not to worry about it and that he had money to
pay the rent. Justice was not aware of Mr. Sheer leaving the mobile home that
night with any money, but sometime latter, Justice noticed Sheer was counting
■j

money and some rolled coins. He gave her four hundred dollars for the rent. Mr.
Sheer and Justice purchased crack cocaine with the rest of the money. Mr. Sheer
also had several pornographic DVDs that looked familiar to Justice because of
the numbers and casings, the DVDs appeared to be from Intimate Ideas. When
Justice asked Mr. Sheer where he got the DVDs, he replied that it was none of
her business.
The security video from Intimate Idea waS played for the jury. Justice
became aware of the robbery at Intimate Idea within two week after it took
place when someone asked her if she Seen the video. Justice viewed the video on
the Oakland Press website. Justice conceded that she couid not say for certain
that Mr. Sheer was the person in the robbery vedeo.
Mr. Sheer chose not to testify. The defense rested. After closing argument
and jury instruction, the jury convicted Sheer as charged—one count of armed
robbery. Attorney Neil J. Leithauser of Troy, Michigan was appointed by the
Court represent Mr.

Sheer on his direct appeal to the Michigan Court of

Appeals.
Attorney Leithauser appealed the jury verdict to the Michigan Court of

5.

Appeals. Relief was denied because:
There can be not dispute that the trial court's failure to require
Justice to swear under oath or make an affirmation was a plain
error. People v Carines, 460 Mich 750, 763-764; 597 NW2d 130
(1999). Nevertheless, Sheer fails to show "that the error affected
the outcome of the lower court proceedings. Carines, 460 Mich at
763. The trial court proceeding as if Justice's testimony was
sworn, and the record does not indicate that Justice testified
differently because she was not under oath. Moreover f 9 the
prosecution presented ample evidence of Sheer's guilt other then
Justice's unsworn testimony. When the police searched, Sheer's
trailer, they found 38 DVDs that were stolen during the robbery.
The police also found a utility knife in Justice's vehicle, which
the store's employee identified as the knife used by the robbery.
The employee also listened to a police voice line-up and identified
Sheer's voice as that Of the robber. In light of the foregoing
evidence, Sheer failed to establish that the trial court's plain
error affected the outcome of his trial. While we acknowledge that
defense counsel possessed "wide discretion in matter of trial
strategyC,]" People v Odom, 276 Mich App 407, 415: 740 NW2d 557
(2007), we find there was no arguable trial strategy to justify
allowing an adverse witness to testify outside the penalties of
perjury. People v Ramos, 430 Mich 544, 548: 424 NW2d 509 (1988).
Accordingly, we find that defense counsel's performance fell below
an objective standard of reasonableness where counsel failed to
object to Justice unsworn testimony. However, to establish this
claim of ineffective assistance of counsel, Sheer must also
demonstrate that, but for counsel error, the outcome of trial would
been different and that the error f*endered the proceedings
"fundamentally unfair or unreliable." People v Garza, 246 Mich App
251, 255; 631 NW2d 764 (2001). As discussed above, the trial
proceedings as if Justice's testimony was sworn, and the record doe
not indicate that Justice testified differently because she was not
under oath. Thus Sheer fails to establish that defense counsel's
failure to object to Justice unsworn testimony prejudice Sheer by
affecting the outcome of his trial.
People v Sheer,

Mich COA No.

302109,

Opinion, p. 2-4. Petitioner Sheer's

subsequent application for leave to appeal to the Michigan Supreme Court was
denied.
Following the denial of his direct appeal Petitioner Sheer filed, pro se, a
motion for relief from judgment pursuant to Michigan Court Rule 6.500. In that
motion he argued that he waS denied due process by prosecutor providing false
testimony by Misty Justice lived with Mr. Sheer at the time of the robbery. The
state trial Court denied the motion finding that the allegation could have been

6.

raised in sheer’s direct appeal and that therefore he failed to comply with MCR
6.508(D). his subsequent appeal to the Michigan Court of Appeals and Michigan
Supreme Court was denied for failure to establish entitlement to relief under
MCR 6.508(D).
On November 1, 2016, Petitioner filed Petition for Writ of Habeas Corpus
seeking to have hiS conviction vacated based on his Sixth Amendment right to
confrontation,

and being denied effective assistance of counsel,

and the

prosecutor violated his Due Process rights by allowing a witness to provide
false testimony. He alleged that by the witness Misty Justice not taking a
She did
oath, as a matter of law, therefore, provided no competent evidence.
not, legitimately contribute to the guilty verdict, through competent sworn
testimony, but instead, her unsworn 'testimony' irreparably contaminated the
proceeding and denied Mr. sheer of a fair and just verdict, as well as his
ability to effectively confront the evidence, as guaranteed him through the
Sixth Amendment. That his Sixth Amendment rights to effective assistance of
counsel was denied where his appellate counsel failed to argue the prosecutor
violated his due process right to fair trial by provided false testimony to the
jury.
On May 8, 2019, the district court issued its Opinion and Order denying the
Petition for a writ of Habeas Corpus and issuing a Certificate of Appealability
in this matter. The district court denied the certificate of appealability
stating that, "upon review • • • the Court concludes that petitioner had failed
to make a Substantial showing of the denial of a federal constitutional right
or

reasonable

jurists would

find

the

court's

rejection of these

claims

debatable or wrong." On June 8, 2019, Petitioner filed a Motion in support of a
Certificate of Appealability. On September 30. 2019, the sixth circuit issued
an order denying a certificate of appealability, petitioner then filed a Motion

7.

for Rehearing en banc of this Court's order entered on September 30, 2019,
denying his application for certificate of appealability. After review of the
petitioner,

by

the full

panel of the

Sixth Circuit, it

issued

its order

announcing its conclusion that the original application was properly denied.
Petitioner not seeks a Writ of Certiorari to the Sixth Circuit granting
him a certificate of appealability.
ARGUMENT
I.
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI IN ORDER TO
CORRECT THE SIXTH CIRCUITS DECISION IN DENYING PETITIONER S
CERTIFICATE OF APPEALABILITY AS ITS DECISION CONFLICTS WITH
DECISIONS OF THIS COURT ON IMPORTANT MATTER OF FEDERAL LAW AS
MR. SHEER HAS MADE A SUBSTANTIAL SHOWING OF THE DENIAL OF A
CONSTITUTIONAL RIGHT.
A Certificate of Appealability must issue whenever,

reasonable jurist

would find the district Court's conclusion with regard to a habeas petition
debatable or wrong. Slack v McDaniel, 529 U.S. 437, **85; 120 S.Ct 1595, 1604
(2000).

The issuance of a certificate of appealability does not require a

showing that the appeal will succeed and should not be denied because a Court
does not believe that after review of the merits,

"the applicant will not

demonstrate entitlement to relief." Cockrell v Miller-El, 537 U.S. 322, 337;
123 S.Ct

1029,

1039

(2003).

In this case,

because the Michigan Court of

Appeals, found that trial counsel performed deficiently by failing to object to
Justice's unsworn testimony,the only issue before the U.S. District Court was
whether

Petitioner

could

established

that he was

prejudice by his trial

counsel’s failure to object. If he was prejudice, he would have established the
second part of Strickland test for ineffective assistance of trial counsel and
would have been entitled to relief.
In order to succeed in showing prejudice on a claim of ineffective

8.

assistance of counsel based on counsel's failure to object, to prejudicial
evidence, the Petitioner must show that there is a reasonable probability that,
but for counsel's unprofessional error, the result of the proceedings would
have been different. Strickland v Washington, 466 U.S* 668, 104 S.Ct. 2052L 80
L.Ed.2d 674(1984).

A reasonable probability is a probability Sufficient to

undermine confidence in the outcome. Id. at 694. A Certificate of Appealability
must issue if reasonable jurist could differ regarding the district court's
determination of the amount of prejudice he suffered at trial.
Her, the district court has two principal reasons for denying Mr. Sheer's
a certificate on the issue of Misty Justice not being administered oath prior
to testifying under Mich. Comp. Law §600.1432: (1) Petitioner counsel failed to
follow the States contemporaneous objections rule rendering his confrontation
claim procedural bared; and (2) The prosecutor presented amply evidence of
Sheer's guilt other* then Justice unsworn testimony. Both of these conclusion
are, at best, debatable and thus a Certificate of Appealability should issue.
The district court dismisses the prime purpose of the cause predict
limitation is not to protect a State's interest in finality, it is to ensure,
that the Petitioner tries to raise an issue at the first available opportunity.
As Justice Kennedy writing to for the court observed in Meleskey v Zant, 499
U.S. 478, 490 (1991). Following the district court's logic, a habeas petitioner
could never get relief from a jury verdict by counsel's failure to object on a
objective external factor of a unsworn witness because states's interest in
finality would always prevent a finding of good cause and thus making Amadeo v
Zant,

486

U.S.

2014

(1988),

an

empty doctrine.

Because

this

Court has

recognized that a objective external factor which interfered with counsel's
ability to make a timely contemporaneous objection.

9.

The district court's

reasoning that Petitioner's Sixth Amendment Confrontation Clause is bard as
cause was not shown is wrong or debatable among reasonable jurists.
The district court’s

second

reason

for

denying his application for

Certificate of Appealability the prosecutor presented ample evidence of Sheer’s
guilt

other

them

Justice

unsworn

testimony.

First,

the

testimony

was

characterized as overwhelming by the prosecuting attorney. However, given his
failure to ensure his key witness be administered the oath prior to testifying
at the end resulting in Mr. Sheer's Sixth Amendment rights being violated his
assessment suspect. When characterizing the evidence as overwhelming the court
failed to consider a number of factors. That as brought out at trial. That, is
at approximately 10:30 p.m., on November* 10, 2019 Kidd was working alone when a
person entered the Intimate Idea Store, in Commerce Township. She did not hear
the person enter because she was vacuuming. The person was wearing a hood,
something wrapped around his face,

sunglasses, gloves and he possessed a

utility knife, a knife she did not recognize at trial. At the time of the
robbery she was in a panic mode at this time. Deputy Hein testimony shows "that
Mrs. Kidd told him the robbers voice wa3 very deep and obviously fact. Because
the Court failed to consider these factors, its finding that the evidence was
overwhelming other then Justice unsworn testimony could be found to wrong or
debatable by other reasonable jurist.
The district Court's finding that there was sufficient evidence to support
Mr. sheer's conviction has already been found to be wrong by reasonable jurist.
In People v Hampton, 407 Mich 354, 372 (1979), cert den 449 U.S. 885 (1980),
the Michigan Supreme Court rejected the rule that as long as there is "some
evidence" a conviction may be sustained. This logic, is expressed by the Sixth

10.

Circuit in united States v Quinn, 901 F,2d 522 (6th Cir.1990), the untainted
evidence introduced by the government does not necessarily reflect all other
liable evidence of petitioner's involvement. Id. at 531-532.
Finally, the district Court's opinion failed to consider evidence which
supports petitioner's prejudice claim. See Oppion. p. 9 (“beyond adopting the
self-serving opinion, the prosecution presented ample evidence of Sheer's guilt
other then Justice's unsworn testimony.) The District Court's opinion ignores
the fact that on July 13,

2012, the regional ypice President of Sherwood

Village Manufactured Home Community, conformed that Mr. Sheer was not listed as
applicant or on a le£sg,in November 2009. The record only Indicated, that sheer
was listed as an emergency contact. The district court also ignored the fact
Sheer was recently paroled on January 3, 2007, from the Michigan Department of
Corrections on the charge of fleeing and alluding. As a condition of his
parole, he was paroled to 41879, Lafles. St • 9 City of Novi, Michigan in Oakland
County. Furthermore, his only child was enrolled in Medowbrooks Elementary
School in Novi, Michigan, in Oakland County. A reasonable jurist who considered
the information which supports prejudice prong of Strickland, supra, could find
the district court's conclusion was wrong or debatable.
This evidence might serve as corroboration of Kidd’s testimony,

but

standing alone, it could not support a guilty verdict, sheer's girlfriend,
Misty Justice put Shee^ at the robbery by speculation, but she did not see
Sheer rob* the intimate Idea Store with a knife that night, must lessee him
inter the store, on top of these deficiencies in the prosecutions case, no
physical

evidence

linked

sheer to

the crime.

As

indicated

above,

every

conclusion drawn by the district court is support of its decision not to credit
this vital evidence is at least debatable. Ih such an instance a certificate of
Appealability should issue.
11.

II.
DAVID SHEER HAS DENIED HIS SIXTH AMENDMENT RIGHTS TO
CONFRONTATION UNDER THE UNITED STATES CONSTITUTION WHERE THE
TRIAL COURT FAILED TO ADMINISTERED THE OATH TO MISTY JUSTICE
PRIOR TO TESTIFYING UNDER MICH. COMP. LAW $600.1432.
The trial court not administering the oath to Misty Justice prior to
testifying at his trial,

after

instructing the

jury,

"evidence

is,

the

testimony of witnesses unde** Oath". Misty as a matter of law, therefore,
provided no competent evidence nor legitimately contributed to the guilty
verdict,
The right to a jury trial in a criminal felony prosecution is fundamental,
and is Secured to a person though both the state and federal constitutions.
Duncan v Louisiana, 391 U.S. 145, 149; 88 S Ct 1444 , 20 L Ed 2d 491 (1968); US
/

Conts., Am. VI; Const. 1963, art 1, $20. The Confrontation Clause of the Sixth
Amendment States that "[i]n all criminal prosecution, the accused shall enjoy
the right • • • to confronted with the witnesses against him".
The statute, MCL $600.1432, mandates that a witness be properly sworn, or
affirmed as a permissible exception. See Eg. People v knox, 115 Mich App 508,
511; 321 NW2d 713 (1982)("The Judicature Act of 1961 mandates that witness in
court proceeding take an oath or make an affirmation that their testimony well
be

true").

MRE 603,

Similarly mandates

that

a witness

be

sworn before

testlying.
According to the Supreme Court, "the central concern of the Confrontation
Clause

is

to insure the reliability of the evidence against a criminal

defendant by Subjecting it to rigorous testing in the context of an adversary
proceeding before the trial of fact". Maryland v Craig, 497 U.S. 836, 845
(1990). The Confrontation Clause "is a procedural rather than a substantive
guarantee, it commands, not that evidence be reliable, but that reliability be

12.

i

assesses

in a particular manner;

by

testing

In

the

crucible

of cross-

examination". Crawford v Washington, 541 U.S. 36, 62 (2004).
The right guaranteed by the Confrontation Clause includes not only a
personal examination,

but also,

to insure that the witness will give his

statement hnder Oath-thus impressing him with seriousness of the matter and
guarding against the lie by the possibility of a penalty of perjury. Craig, 497
U.S.

at

845-46

(quoting

(alteration in original)

California

v

Green,

399

U.S.

149,

158

(1970)

(internal quotations marks an citations omitted).

Federal Rules of Evidence 603, provides that every witness before testifying;
"shall be required to declare that they will testify truthfully, by Oath of
Affirmation administered. While the Supreme Court has recognized Confrontation
clause of the Sixth Amendment,

"is a procedural rather then s substantive

guarantee. This court has repeatedly stated that, "the primary interest secured
by the Confrontation Clause is a Oath, is a necessary ingredient of the right
to cross-examination, that test the witnesses testimony. See Doe v Hermamos, 15
U.S. 76 (1817).
In Ellicot v Pearl, 35 U.S. 412 (1836), this Supreme Court affirmed a lower
Court's

judgment,

based

of

facts very

Similar to

Sheer'S

case.

A mere

declaration of facts, is not evidence in the eye of the court. In Pearl, at
trial of Writ in the Circuit Court of Kentucky, a witness was offered to prove
that Moore, who was dead, and whose names was put down as one of the ChaincarrieS in making the original survey, and who was subsequently present when
the lines were run on the same land, had declared that certain corner was the
corner made by the surveyor, Kincaid. Ellieott v Pearl, 35 U.S. at 433- To
further support its claim, Ellieott, introduced evidence from Ramey's original
survey to prove what Moore had said to other relative to the boundary of
Ramey's Patent, and the making of the original survey, since the settlement and
13-

possession on Pearl, on the land in controversy. Id. at 434. The Kentucky,
Circuit Court after being objected to, was rejected by the court. Id. at 434.
As it was merely hearsay, but not hearsay to matter of general reputation or
common trust among many, but to specific parts, viz. the manner and place of
running the boundary lines of Ramey's patent, ibid. The Supreme Court was of
opinion that the evidence was properly rejected. Id. Because its opinion of
this Court, the general rule is, "that evidence", to be admissible should be
given under the sanction of Oath, legally administered, and in a Judicial
Proceeding. Ellicott, 35 U.S. supra., at 434.
In Petitioner Sheer's case, the key substance of Ms. Justice's testimony,
that is, the highly prejudicial content, ranged from allegations that Mr. Sheer
was involved in drug abuse,

threatening and abusive behavior,

unrelated

Ms.

criminal

activity.

Kidd,

the

actual

complaining

and other
witness,

testified at trial; the transcripts of her testimony extends across about 33
pages (TT,

11/29/2010,

82-115). In contrast, the testimony of Ms. Justice

extends across 86 pages, and longer than any otheh witness in the case (TT,
11/30/2010, 47-133). Essentially, Ms. Justice provided more prejudicial and
incriminating evidence against Mr. Sheer then anyone else at trial; ultimately
Ms. Justice evidence either directly led to the guilty verdict, or played an
enormously crucial role in the final verdict being guilty. Problematically,
however, is the fact that Ms. Justice was never sworn as a witness; that is,
she took hot Oath and, as a matter of law, therefore, provided no competent no
evidence. She did not legitimately contribute to the guilty verdict through
competent sworn testimony, but instead, her unsworn 'testimony' irreparably
contaminated the proceedings and denied Mr. Sheer of a fair trial and just
verdict,

as well as his ability to effectively confront the evidence,

14.

as

guaranteed him through the Sixth Amendment, because the witness, the person
must be placed under Oath, or affirm to tell the truth. If did not happen hear.
The Confrontation Clause secures the right of cross-examination. Davis v
Alaska, 415 U.S. 308, 315 (1974); see also Pointer v Texas, 380 U.S. 400, 40607 (1965). The Confrontation Clause, however, "guarantees only 'an opportunity
for effective cross examination, not cross-examination that is effective in
whatever way, and to whatever extent, the defense might wish. t »f United States v
Owens, 484 U.S. 554, 559 (1988)(quoting Kentucky v Stincer, 482 U.S. 730, 379
(1979).
While its, true here trial counsel had opportunity for cross-examination,
to challenge Justice testimony at trial. In fact, trial counsel extensively
cross-examined

Justice

for

some

forty-eight

pages

of

trial

transcripts

(11/30/10 Tr. at 70-118) and then re-cross-examined Justice for another nearly
seven pages of trial transoript. (Id. at 126-133). Nevertheless, Sheer was
denied his constitutional right to confront an adverse witness by allowing
Justice's unsworn testimony into evidence. Ellicott v Pearl, 35 U.S. 412, 439
(1836),

testimony

under

Oath

is

better

evidence

then

his

confirmatory

declaration not under Oath. And the repetition of his assertions does not carry
his credibility further, if so as his oath. Id.
According to the Supreme Court the Confrontation Clause clearly requires
that a witness testify under oath: as criminal defendant's constitutional
t? f

right of confrontation insures that the witness testify under oath at trial,

is available for cross-examination, and allows the jury to observe the demeanor
of the witness. Crawford v Washington, 541 U.S. 36, 62 (2004); See also People
v Wastson,

245 Mich App 572, 584; 629 NW2d 411

(2011), quoting People v

Frazier, (After Remand), 446 Mich 539, 543; 521 NW2d 291 (1994)(Brickely, J.).
To hold, so long as Petitioner had ample opportunity to cross-examin, the
15.

adverse witness Misty Justice's, it is not unconstitutional to receive unsworn
testimony into evidence. Petitioner Sheer emphatically disagrees. It is simple
as this. Materiality is testimony in nature,

and constitutes evidence, as

result, it should be verified by Oath or Affirmation. See United States v
Valezuela-Berbai, 458 U.S. 858, 872 (1982). Therefore, there can be no dispute
that the trial Court's failure to require Misty Justice to swear under Oath or
make a affirmation was a constitutional violation of Confrontation Clause of
the Sixth Amendment of the U.S. Constitution. U.S. Const. Am VI, this Court
should find that the Confrontation clause was violated. Because Petitioner
Sheer has established the Confrontation Clause of the Sixth Amendment was
clearly violated by the admission of this highly prejudicial testimony not
given under oath as required by Crawford v Washington, supra. And that the
evidence provided by Musty Justice throughout, the 86 pages, was not evidence
under Ellicott v Pearl, supra, the Court should grant the petition based on
Sheer's Confrontation rights were violated under the U.S. Constitution.
III.
DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHT TO THE
EFFECTIVE ASSISTANCE OF COUNSEL WHERE HIS TRIAL COUNSEL FAILED
TO ASSERT A TIMELY OBJECTION CHALLENGING THE CONFRONTATION
CLAUSE VIOLATION OF MISTY JUSTICE NOT ADMINISTERED A OATH PRIOR
TO TESTIFYING.
Attorney Michael J. McCarthy rendered ineffective assistance when he failed
to assert a timely objection to the testimony of Misty Justice, who's testimony
was submitted to the jury without being administered the oath as required by
state and Federal Law.
The United States Supreme Court has established the legal principles that
governs claims of ineffective assistance of counsel. See, Wiggins v Smith, 439
U.S. 510 (2003), quoting Strickland v Washington, 466 U.S. 668 (1980). The

16.

to counsel guaranteed by the United States, U.S. Const. Am VI, is the right to
effective assistance of counsel. An ineffective assistance of counsel claim has
two

components.

A

Petitioner

must

show

that

Counsel's

performance

was

deficient, and that, the deficiency prejudice the defense. Id. at 687. 80 L Ed
2d 674, 104 S.Ct 2052. To establish deficient performance, a Petitioner must
demonstrate that counsel's representation "fell below an objective standard of
reasonableness." Id. at 688, 80 L Ed 2d 674, 104 S.Ct 2052. This Cotirt has
declined to articulate specific guidelines for appropriate attorney conduct,
and instead have emphasized that "the proper measure of attorney performance
remains simply reasonableness under the prevailing professional norms". Ibid.
In Petitioner case, the Michigan Court of Appeals ruled attorney McCarthy
assistance at Mr. Sheer's trial was deficient, by failing to object to Misty
Justice unsworn testimony. While the court acknowledge that defense counsel
actions "fell below prevailing professional norms". Id. The Michigan Court of
Appeals affirmed Sheer's conviction in an unpublished per curiam opinion.
Sheer, 2012 WL 470194, at *1-2.
There can be no dispute that the trial court's failure to
require Justice to swear to answer under oath or make an
affirmation was plain error. Nevertheless, sheer fails to show
"that the error effected the outcome of the lower court
proceedings." Carines, 460 Mich at 763. The trial proceeded as
if Justice's testimony was sworn, and the record does not
indicate that Justice testified differently because she was not
under Oath. Moreover, the prosecution presented ample evidence
of Sheer's guilt other then Justice unsworn testimony. When the
police searched Sheer's trailer, they found 38 DVDs that were
stolen during the robbery. The police also found a utility
knife in Justice vehicle, which the store employee identified
as the knife used by the robber. The employee also listened to
a police voice line-up and identified Sheer's voice as that of
the robber. In light of the foregoing evidence, Sheer fails to
establish that the trial court's plain error affected the
outcome of hid trial.
Sheer, 2012 W1 470194, at *2. (Internal citations omitted).

17.

On May 8th, 2019, the district court adopted the Michigan Court of Appeals
unpublished

per

curiam

opinion

verbatim

the

evidence

presented

by

the

prosecution without Justice testimony was ample enough to convict him of armed
robbery. See opinion at *8-9. (appended hereto,*-as Appendix D).
The

U.S.

District

Court's

Judge

George

C.

Steeh,

conclusion

that

Petitioner's Sheer was not prejudice by trial counsel's failure to object to
the unsworn testimony as the prosecutor presented ample evidence of Mr. Sheer's
guilt other then Justice unsworn testimony, precluded an finding of ineffective
assistance of counsel was a unreasonable one. Compare Hendrix v Palmer, 893
F.3d 906, 923, 929 (65h Cir.2018)(Murder defendant was prejudiced by defense
counsel's

failure

to

raise

timely

objection

to

admission

of

Petitioner

statement, as meritorious nature of a motion to suppress was clear, not filing
a motion to suppress had no conceivable strategic benefit for defendant, lack
of timely challenge to admission of defendant's statement identified defendant
as the shooter, and the evidence was sufficient without that statement, to
support conviction). More directly controlling here was the observation of
Chief Justice Rehnquist in Lockhart, following an analysis of Burks v United
States, 437 U.S. 1; 57 L Ed 2d 1; 98 S.Ct 2141 (1978).
Burks was careful to point out that a reversal based solely
on evidentiary insufficiency has fundamentally different
implication for double jeopardy purposes, than a reversal
based on such ordinary "trial errors: as the "incorrect
receipt of rejection of evidence". 437 U.S. at 14-16, 98 S.Ct
at 2148-2150. While the former is in effect a finding "that
government has failed to prove its case" against the
defendant "the latter" implies nothing with respect to the
guilt or innocence of the defendant," but is simply "a
determination that Che] has been convicted through a Judicial
process which is defective in some fundamental respect". Id.
at 15, 98 S.Ct at 2149. (emphasis added)[Lockhart, 109 S.Ct
at 290].
The logic employed by the Chief Justice in Lockhart was foreshadowed by that

18.

which the Sixth Circuit in United States v Quinn, 901 F.2d 522 (6th Cir. 1990)
(per curiam). In Quinn, the government failed to lay a proper foundation for
admission of an allegedly unavailable witness* testimony. Id. at 528. That such
violation, violated defendant's right under the Confrontation Clause of U.S.
Const, amend VI. Ibid. Because witness was not "unavailable" for purpose of the
exception to the confrontation clause, because the government's late subpoena
notice and subsequent effort failed to constitute a good-faith effort to obtain
her presence at trial. Id. The most important aspect of Quinn, supra, is the
fact, the Sixth Circuit concluded that there was sufficient evidence to support
his conviction in light most favorable to the prosecution. Id. at 529. But,
however, ruled sufficient evidence to convict, of course, does not excuse the
constitutional violation, as the proceedings had been tainted by violation of
the Confrontation Clause. Quiin, 901 F.2d at 531.
As this Court has noticed in the past admission of unconstitutional
obtained evidence at a defendant's trial is prejudicial, nor is the error to be
treated as harmless. Id. Fahy v Connecticut, 375 U.S. 85, 86 n.2; 84 S.Ct 229, :
111

L Ed

2d

171

(1963),

as

the essence of a provision forbidding the

acquisition of evidence in a certain was is not merely evidence, so acquired
shall not be used before a Court, but that it shall not be used at all. Hawkins
v United States, 358 U.S. 74; 79 S.Ct 136, 3 L Ed 2d 125 (1958).
There were significant question about Ms. Kidd's credibility. For example,
at approximately 10:30 p.m. on November 10, 2009, Kidd was working alone when a
person entered the store. (Til, 84, 86). she did not hear the person enter
because

she was vacuuming.

The person was male and was wearing a hood,

something wrapped around his face, sunglasses,

gloves, and he possessed a

utility knife. (Til, 86-87). The man pointed knife at Kidd and told her to

19.

open the cash register and not to pus any buttons before getting to the
register. (Til, 91-92). Kidd was scared. Notably, is the fact, Ms. Kidd said,
although the People's Exhibit #1 looked litttt the utility knife used by the
robber. Ms. Kidd was surprised to see that it had a different style blade with
a hook. (Id. at 88-89, 90, 110-111, 113). Sometime latter, a voice line-up was
conducted and Kidd immediately picked out a voice she recognized as the person
who robber the store. (TII, 98). To the officer, however, she described the
intruder's

voice to be very deep and obviously

fact. (Id.

at

122).

121

According to Detective Campbell (id. at 165), Mr. sheer had a lower, gravelly
voice. By inference, of course, Mr. sheer's naturally lower voice would not be
lowered

through

obvious

fakery.

The

state

will

undoubtable

argue

that

Petitioner's voice is sufficient to support his conviction. The Sixth Circuit
has suggested in dicta that a state court decision allowing the introduction of
voice identification evidence that is impermissibly suggestive could represent
the unreasonable application of Supreme Court cases addressing identification
procedures in general. See Clifford v Chamdler, 333 F.3d 72*1 (2003).
The evidence against him consisted,
subsequent

voice-identification,

but,

certainly,
more

likely

v-

in part to Ms. kidd's
though

the

diverse

incriminating behavior, to his alleged drugs use, other criminal activity, his
residing

in the home,

and

his having unexplained

cash

and

pornographic

recordings on the day Intimate ideas was robbed—of the previously-crackcocaine-addicted Ms. Justice. It is significant that Ms. Justice admitted to
taking and keeping what she though were fruits of the robbery, including both
cash (which she converted to cocaine and then smoked, and, likely, also payment
of rent), and adult videos, she obviously had her own motive to lie, for, at a
minimum, she was an accessory after the fact, and may have had a greater role—
due to her earlier-gained knowledge of the business-in the formulation and
20.

planing of the robbery,
brother,. and/or,

She may have been protecting herself, and/or her

giving the prosecutor's theory credence for the sake of

argument, Mr. Sheer. But she was free to

pick and chose, without fear of any

legal repercussion, what the say.
Although Ms. Justice was cross-examined at some length, the full of the
Sixth Amendment right to confront the witnesses and evidence against him thus
could not be realized by Mr. Sheer, because Ms. Justice was not under an
obligation, promise, affirmation, or any possible penalty of perjury for false
testimony. A witness' motive for testifying is always relevant. See for example
Davis v Alaska, 415 US 308 (1974), and Delaware v Van Arsdall, 474 US 673
(1986).
Defense counsel failed to object (as did the prosecutor) to the trial
court's failure to ensure the witness was properly sworn to given legitimate
testimony. Because neither the trial court, nor the prosecutor,
counsel

was

aware

of

the

witness's

testimony

was

unsworn

not trial

due

to

the

interruption of jury member's, The trial court, the prosecutor, and defense
counsel all failed in their respective obligations. Because the credibility of
the witness prior testimony was highly suspect,

and thus,

the underlying

importance of personal confrontation, before the jury. The jury should of been
instruction upon this error, in order to uphold its legal obligation to return
a just verdict on competent, and admissible obtained evidence. Defense counsel
was obligated to render effective assistance to Mr. Sheer, effective assistance
included protecting the defendant from inadmissible evidence. See,for example,
combs v Coyle, 205 F.3d 269 (6th Cir.2000)(where counsel failure to assert
objections and challenge to a Fifth amendment violation, among other error, was
ineffective), and Washington b Hofbauer, 228 F.3d 689 (6th Cir.2000)(counsel's
failure to object to obvious prosecutorial misconduct due to incompetence and
21.

ignorance of the law, rather then a reasonable trial strategy defendant was
prejudice).
According,

to

the

Supreme

Court

a reviewing court

"must

judge

the

reasonableness of counsel's challenged conduct on the fact of the particular
case, viewed as of the time of counsel's conduct," and "the court should
recognize

that

counsel

is

strongly

presumed

to

have

rendered

adequate

assistance and made all significant decisions on the exercise of reasonable
professional judgement." Strickland, supra, 466 US at 690. Also, "strategic
choices made after through investigation of law and facts relevant to plausible
options are virtually unchallengeable • • • * " Id. However, the defense lawyer must
adequately investigate,

prepare

a meritorious defense absent a legitimate

reason. Strickland, supra, 466 US at 691. Counsel;s ineffectiveness need not be
pervasive, and may stem from a "single, serious error." Kimmelman v Morrison,
477 US 365, 383; 106 S. Ct 2574; 91 L Ed 2d 305 (1986).
The error of having a key witness 'testifying' against Mr. sheer cannot be
deemed harmless beyond a reasonable doubt. Fahy, supra, 375 US at 86; and
Chapman v California, 386 US 18 (1967)(standard for reviewing constitutional
error on direct appeal is harmless beyond a reasonable doubt). The jury was not
instructed to view Ms. Justice's

'testimony' any differently then properly

admitted evidence and sworn-to testimony. Ms. Justice contaminated the entire
proceeding from and after she testified; taken with the prosecutor's opinion
statement, anticipating Ms. Justice testimony, the entire trial was tainted.
One cannot un-ring a bell once sounded.

Because the state has offered no

evidence to contradict his assertion, this Court should find that the prejudice
prong

of

Strickland

has

been

established.

Because

Petitioner

Sheer

has

established both the deficient performance and prejudice prong required by

22.

Strickland v Washington, supra, the Court should grant the petition based on
ineffective assistance of trial counsel.
IV.
DAVID SHEER WAS DENIED HIS FOURTEENTH AMENDMENT RIGHTS TO A
FAIR TRIAL NY PROSECUTING ATTORNEY PROVIDING FALSE TESTIMONY
THAT MISTY JUSTICE'S AND DAVID SHEER RESIDED TOGETHER AT THE
TIME OF THE ROBBERY OF INTIMATE IDEA STORE.
The Oakland County Prosecuting Attorney Gregory J. Townsend denied Sheer a
fair trial when he introduced false testimony into the trial record,

the

prosecuting witness Misty Justice’s, and Sheer resided at the same resident, at
the time, of the robbery of Intimate Idea store. In reality, Petitioner Sheer
actually resided in Novi, Michigan, upon his release on parole.
In Giglio v United States, 405 U.S. 150; 91 S.Ct 763 (1972), the Supreme
Court

outlined

the

test

for

prosecution

misconduct

claims

relating

to

introduction of false testimony to jurors. The Supreme Court found that the
three prong test of Naupe v Illinois, 360 U.S. 264 (1959), applies to claims of
presentation of false testimony. In the context of false testimony, the Supreme '
Court held that the three prongs is satisfied if the Petitioner can show that
the testimony (or evidence) was actually false, the prosecutor knew or should
have known that the testimony was actually false, and that the testimony was
material. Napue v Illinois, 360 U.S. at 267-71; 79 S.Ct at 1177 (1959).
The Supreme Court has held that the Fourteenth Amendment cannot tolerate a
State criminal conviction obtained by knowing use of false evidence under
Napue. Donnely v DeChristoford, 416 U.S. 637, 646; 96 S.Ct 1868 (1974). In
United States v Willis, 257 F.3d 636 (6th Cir. 2001), the Sixth Circuit found a
Due Process violation based on facts very similar to Petitioner Sheer’s case.
Willis was charged with drug sales. Narcotics untie of Cleveland police
Department began conducting surveillance at 2667 East 83rd street, a two family

23.

residence in Cleveland Ohio. Willis, 257 F.3d at 638. Upon searing the home,
the officer discovered in the bathroom an electronic gram scale. Also, in a
small, padlocked closet in the bathroom, a jacket containing seven bricks of
heroin. Id. at 639. In addition to the items found in the bathroom, the officer
retrieved many papers addressed to or intended for "Timonth Willis" in the
residence's one bedroom.

Id.

The defense presented several witnesses. The

Defendant's grandmother, Fetzgerald's testimony was that the defendant moved to
the west side of Cleveland, although she did not know where, in August 1996
because "he was having problems". Id. at 6*10. In rebuttal according to Richard
Warren the defendant lived at 2627 E. 83rd St. for as long, as long as Richard
had known him, which, as Richard stated, was "all [his] life." Id. at 6*11. And
that, he never known of defendant to have lived on the west side of Cleveland.
Id. But only William had lived in the upstairs residence at 2667 E. 83rd St.
Id. at 641. After his conviction Richard Warren recanted significant portions
of his trial testimony. Id. 641. Namely, that Willis lives on East 83rd St. and
the

jack in question belonged to Willis,

but that those statements were

"complete lies".Ibid. The district court found this statement to be false, and
vacated his conviction. Id. at 642. The Sixth Circuit found that because, "the
court itself had concerns about the veracity of Warrens trial testimony",
whereby, he openly voiced its concerns about Richard Warren having been "pickup
by a police car. Further as it appears Warren was frightened that he would
either be accused

of the crime against Defendant or other crimes if he did not

testify, the Sixth Circuit found that the granting of Willis's petition for
writ of habeas corpus was proper. Id. at 649.
In Petitioner Sheer's case,
County Sheriff's Office,

received

Sergeant Dennis Servis
the

complaint

with the Oakland

of the armed

robbery

at

Intimate Idea. Tr. Jury Trial 11/30/2010 p. 137-142. Justice authorized the
24.

police to search her vehicle. Servis performed the search of Justice's vehicle
and located a box cuter type razor bald with a hooked razor and two yellow tabs
on the passenger side floor board underneath miscellaneous papers, Servis also
conducted a search of Justice's and defendant home on November 19, 2009. He
found thirty-eight pornographic DVD's located in the bedroom. Servis took the
DVD's into evidence. Defendant was arrested just prior to the home search. At
Sheer's trial Justice identified defendant in court as a former boyfriend who
she lived with from January to November of 2009*

This can be verified by

contacting the trailer park manger of Sheer being listed as the applicant on
the

lease

in

November

of 2009.

Justice

testimony

can only

be

considered

deliberate deception of the court and jury under Nepue.
In Mooney v Holohan, 29^ U.S. 103; 55 S.Ct 3*10 (1935), the Supreme Court
determined that "[D]eliberate deception of Court and jury by the prosecution of
testimony known to be perjury inconsistent with the rudimentary demand of
Justice. In this case

it was attempted several time to receive an answer of

his legal residence at mobile-home park in Canton Township, Michigan, After
several attempts Jeanette Pajot, sister of Sheer contacted Sherwood Village for
conformation of this. Sherwood refused to release the information.
After several attempts by both parties. On July 13, 2012,
the Regional Vice President of the Sherwood Village
Manufactured Home Community conformed that defendant Sheer
was not list, as an, applicant or on a lease in November of
2009. In fact, the record clearly indicates that Defendant
Sheer was listed as an emergency contact only on the
application that was submitted to the manger in November of
2009.
(Emphasis added). At trial, the State relied in large part upon this evidence
seized at 78 Essex Lane, in Canton, Michigan, coupled with Justice testimony
that

the

November

defendant
of

2009.

was
The

living with her
prosecutor

also

25.

between
presented

the months of January
to

the

jury.

Ladies

to
and

gentlemen:

"Now you’re gonna hear from a young lady by the name of 'Misty

Justice' Who • • • lived with the Defendant in this case, and the evidence gonna
show that person that had the box cutter as the person that walked into the
store and threatened and robbed her indicated in the defendant right her, David
Sheer. Tr. Jury Trial, 11/29/2010, p.70. In essence, turned out to be false
testimony.
As the evidence shows, Mr. Sheer was recently paroled from the Michigan
Department of Corrections prior to November 10, 2009 robbery of Intimate Idea
Store. As precondition of his parole, he was paroled to 41879, Lafles, St. in
City of Novi, Michigan, in Oakland, county.
Without this false testimony "the jury might have reached a different
conclsuion" if not for Misty Justice testimony,

while the government had

offered evidence of connecting sheer with the house at 78 Essex Lane, through a
relationship it has presented no evidence other then Misty Justice's testimony
connecting Sheer with Box cutter in the car at the home in which the thirtyeight pornographic DVD's were found. It had presented no evidence showing the
recovery of the clothing or sunglasses used on the robbery, nor the money taken
from Intimate Idea Store. In addition, no evidence was submitted at the time of
his arrest the key's he possessed could be used to unlock the 78 Essex Lane,
residence. While Misty Justice; claims they had a relationship for a year,
"does not necessarily link him to the DVD's box cutter found in the house.
United States v Willis, 257 F.3d at 648. Finally, no other witness identified
Sheer to the jury as having been involved in the crime. The only witness in the
store Marry Kid, to the Oakland County sheriff Detectives the asselant was a
while male, with a slight stature in his 20's. sheer is 38 years old, and is
5*6", and weighs 190 pounds and biracial.
Here

the

governments

cases

depended
26.

almost

entirely

on

Justice's

testimony; without it there could have been no indictment or arrest and no
evidence to carry to the jury. Justice's credibility as a witness was therefore
an important issue in the case, and any evidence of true understanding of
Sheer's legal residents would be relevant to her credibility and the jury was
entitled to know it. The fact that other evidence regarding the witness's
credibility was introduced did not remove the taint of the false testimony.
Napue v Illinois, supra, 130 U.S. at 271.
This Court has held a conviction must fall under the Fourteenth Amendment
when a prosecution "although not soliciting false testimony, allows it to go
uncorrected when it appear's" eventhough the testimony may be relevant on to
the credibility of the witness. Giles v Maryland, 386 U.S. 66, 74; 87 S.Ct 745
(1967)

citing with approval Napue v Illinois,

supra.,

360 U.S.

at

269.

Similarly, in the case of Giglio v United States, 405 U.S. 150; 92 S.Ct 763
(1972),

the Supreme Court reversed and remanded because the prosecution's

failure to disclose the promise of leniency to the witness was an issue
affecting credibility, which was therefore materal. Id. at 153. Defense counsel
asked a witness on cross-examination if any promises of leniency had been made,
and the witness falsely answered no. Id. at 153. Upon learning that promise not
to prosecute the witness had in fact been made, defendant moved for a new trial
based on newly discovered evidence. The appellate court affirmed the trial
Court’s denial of the Motion. Giglio, 405 U.S. at 153. The Supreme Court
concluded the suppression of the this material evidence violated due process
and warranted a new trial whether is resulted from prosecution negligence or
deliberate deception. Id. at 154 Fn.3.
The prosecution in this case has denied Mr. Sheer his Due Process rights
to

fair

trial,

in the deliberate use of perjury

27.

testimony to obtain a

conviction. U.S. Const. Amend XIV. Because the State has offered no evidence to
contradict his assertion, this Court should find that three prong of Napue,
supra has been established. Because Petitioner Sheer has established both the
evidence was false and testimony and meet the material prong required by Napue
v Illinois, supra, the Court should grant the petition based on prosecutorial
misconduct.
V.
DAVID SHEER WAS DENIED HIS SIXTH AMENDMENT RIGHTS TO THE
EFFECTIVE ASSISTANCE OF COUNSEL WHERE HIS APPELLATE COUNSEL
FAILED TO INVESTIGATE AND RAISE THE PROSECUTION DENIED HIM HIS
FOURTEENTH AMENDMENT RIGHTS TO FAIR TRIAL BY PRESENTING FALSE
TESTIMONY TO THE JURY.
Appellant counsel was ineffective when he raised the issue of ineffective
assistance of trial counsel, but failed to allege the prosecution presentation
of false testimony violated Sheer's right to fair trial. Napue v Illinois, 360
U.S. 150, 267-71; 79 S.Ct at 1777 (1959). In order to prevail on a claim of
ineffective

assistance

a

petitioner

must

show

performance was objectively unreasonable and

post

that

his

attorney's

that he was prejudice by his

performance. Strickland v Washington, 466 U.S. 668; 104 S.Ct 2052 (1984); Cf.
also Smith v Robbins, 528 U.S. 259; 120 S.Ct 756 (2000). When examining claims
relating to appellate counsel these two factors often collapse because the
performance

of

counsels

is

measured

by

his

failure

to

properly

raise

a

meritorious claim which would have resulted in relief for the petitioner. Caver
v

Straub,

349

F. 3d

340,

348

Fn,.

5

(6th

Cir.2003).

If* the

Court

finds

petitioner Sheer's Fourteenth Amendment rights were violated by the admission
of this false testimony it should then find appellate counsel was ineffective
for failing to properly present that meritorious claim to the State court.
This Court reviews claims of ineffective assistance of counsel with a high

28.

degree of deference to counsel's performance. Strickland v Washington, supra.
This Court is required to make every effort "to eliminate the distorting
effects of hindsight, to reconstruct the circumstances of counsel's challenged
conduct, and evaluate the conduct from counsel's perspective at the time." Id.
In this case, attorney Neil J. Leithauser was never asked to answer this
question, behind his decision. Because the State refused to allow a evidentiary
hearing, thus in order to obtain this most important vital fact.
In Jones v Barnes, *463 U.S. 754' 130 S.Ct 3308 (1983), the Supreme Court
held a accused is entitled to the effective assistance of counsel, but counsel
does not have constitutional duty to raise every nonfrivolous issue requested
by the defendant. Barnes, 463 U.S. at 7^5* 103 S.Ct at 3314 (1983). However, an
accused it entitled to have counsel make "an independent examination of the
facts, circumstance, and law involved • • • " Von Moltkey v Gullis, 332 U.S. 708,
721; 66 S.Ct 316 (1948). Accordingly, the attorney strategy, must be sound.
Kimmelman v Morrison, 477 U.S. 365, 383; 106 S.Ct 2574).
In petitioner's case, appellate counsel representation was objectively
unreasonable because "no sound strategy would have supported a decision not to
have interjected this meritorious claim in his direct appeal. Because once it
was noticed Misty Justice falsely testified defendant Sheer requested attorney
MaCarthy to follow up on this false testimony, but however refused. Then with
appellate counsel Neil J. Leithauser, attorney Leithauser, responded that he
was focusing not on the Fourteenth Amendment violation claim, but rather on
Sixth Amendment claim of Misty Justice not being sworn. At the end of the day,
they are both interlocked into each other, because without other-one both fail
on there merit's.

After this Jeanette Pajot, sister of Defendant Sheer,

contacted Sherwood Village for conformation of this. Sherwood Village refused
to release the info. Petitioner Sheer was sentenced on December 11, 2010.
29.

After several (FOI) Freedom if Information Attempts, through Canton City
Hall, who owned’ Sherwood Village. On July 13, 2012, the Regional Vice President
of the Sherwwod Village Manufactured Homes Community responded to Mr. Sheer
(FOI) requests. That petitioner Sheer was not listed as an applicant or less
holder in November of 2009, as testified to by Misty Justice. Tt. Jury Trial,
10/30/2010.

P-

73.

In

fact,

Regional

Vice President

refuted

this claim,

indicating that "Petitioner Sheer was only listed as an emergency contact on
the application in case of a emergency only submitted by Misty Justice in
November of 2009."
Given that the witness’s testimony was the only evidence than available
for Sheer's defense, and given that the testimony would be vulnerable, as the
witness could of established that Sheer was not a legal resident at 78 Esset
Lane, United States v Millis, supra., the lawyer's failure to do any further
investigation to support this claim at that point remained unexplained, it not
inexplicable, once appellate counsel learned of this witness, had he taken even
minimal additional investigation steps, he would have uncovered the testimony
given by Misty was false. Id.
There

is

no

indication

that

Mr.

Leithauser

performed

any

further

investigation after Sheer informed him of this vital information for his direct
appeal. See People v Grant, 470 Mich 477; 684 NW2d 686 (2004). Michigan Supreme
court recognize that

failure to investigate and

substantiate the primary

defense is not a strategic decision, but rather a fundamental abdication of a
duty to conduct a complete investigation. Thereby restricting his ability to
make a reasonable professional judgement. Grant, 470 Mich at 484; 684 NN2d at
691. Quoting, Strickland v Washington, 466 U.S. 668; 104 S.Ct. 2052 (1984).
By omitting an issue under these circumstances, counsel performance is

30.

objectively unreasonable under these circumstances, because the omitted issue
is obvious from the record. See United states v Cook, 45 F.3f 388 (10th
Cir. 1995). In Martin v Wainwright, 811 F.2d 1430 (11th Cir.1987), this court
ruled counsel failure to raise issue which was "obvious from the record" was
deficient performance. Wainwright, supra, at 1438. Similarly, in McClellan v
Rapelje, 703 F.3d 344 (6th Cir.2013), the Sixth Circuit granted habeas relief
for failing to adequately investigate claim of ineffective assistance of trial
counsel. Id.
Counsel deficiency is obvious, he had the factual information to satisfy
the required elements of this claim, he failed to attempt to investigate a
obvious issue from the facts of the record. No strategic justification can
exist for failing to investigation a Fourteenth Amendment violating of a
witness given false testimony to a jury. Without this allegation, Petitioner
Sheer could not prevail on his Sixth Amendment claim, as they interlock oneanother. Because this underlying claim was meritorious, Petitioner Sheer was
prejudice by this deficient performance under Strickland v Washington, supra,
the

Court

should

grant

the

petition

based

on

ineffective

assistance

of

appellate counsel.
CONCLUSION
Petitioner has demonstrated that he was denied his Sixth and Fourteenth
Amendment constitutional right confrontation of a witness and his counsel was
ineffective on appeal. As such, the correctness of district court's conclusion
to the contrary is at least debatable among jurists of reason. Therefore, this
Court

should

grant

a Writ

of

Certiorari

and/or

issue

a

certificate of

appealability so that Petitioner may obtain appellate review of the district
court's decision. Alternatively, Petitioner prays that this Court issue a Writ
of Certiorari to resolve Mr. Sheer's claims, with raise important issues of
31.

federal constitutional law, on the merits.
Respectfully submitted,
PETITIONER/APPELLANT

DAVID AZIEL SHEER
Gus Harrison Correctional Facility
2727 East Beecher Street
Adrian, Michigan l»9221

Date: April 28, 2020

32.

